TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Taxpayer Service Is Improving, but
                Challenges Continue in Meeting Expectations


                                          February 2006

                              Reference Number: 2006-40-052




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               February 17, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Taxpayer Service Is Improving, but Challenges
                               Continue in Meeting Expectations (Audit # 200540007)

 This report presents the results of our review of taxpayer service provided by the Internal
 Revenue Service (IRS). The overall objective of this review was to determine whether the IRS
 improved the quality of customer service to taxpayers when taxpayers obtained assistance filing
 their income tax returns and receiving their refunds. The basis for our assessment included
 results from Fiscal Years 2002 through 2005 Treasury Inspector General for Tax Administration
 Office of Audit reports.1 We used Fiscal Year 2002 to baseline IRS customer service and
 compared it to Fiscal Years 2003 through 2005 results.

 Synopsis
 Providing quality customer service is the IRS’ first step to achieving taxpayer compliance. One
 of Congress’ principal objectives in enacting the IRS Restructuring and Reform Act of 19982 was
 to mandate that the IRS do a better job of meeting the needs of the taxpayers. Congress directed
 the IRS to achieve a better balance between its postfiling enforcement efforts and prefiling
 taxpayer assistance through education and service.
 The IRS is making progress and is working toward its goals of improving customer service in the
 four key taxpayer service areas: face-to-face assistance; toll-free telephone assistance; tax return
 processing; and electronic services, including the IRS public Internet web site (IRS.gov). IRS
 assistors are courteous and professional. Some improvements have been made on the accuracy

 1
   Three reports were not issued until Fiscal Year 2006; however, the audit work was completed in Fiscal Year 2005.
 See Appendix IV for a list of all reports.
 2
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                       Taxpayer Service Is Improving,
                              but Challenges Continue in Meeting Expectations



of answers assistors provide to taxpayers’ tax law and account inquiries. Access to the toll-free
telephone lines has been noteworthy, and tax returns are being processed on schedule and
refunds issued more quickly. For the 2005 Filing Season,3 electronically filed (e-filed)4 tax
returns exceeded paper-filed tax returns for the first time. In addition, electronic services are
increasing, as is the growth in information provided on IRS.gov.
However, the IRS faces challenges in meeting several of its taxpayer service goals and
expectations, as well as in determining and providing taxpayers the level and types of service
they want or need. The IRS is reducing face-to-face services and encouraging taxpayers to use
other, less costly services, such as the toll-free telephone lines and IRS.gov. With decreasing
taxpayer service budgets, it is essential the IRS determine what the right mix of services might
be (e.g., face-to-face or electronic, self-help or assisted).
The IRS has conducted only limited research on the impact of customer service on taxpayer
compliance. Therefore, there are not sufficient data available to measure the effect on taxpayer
compliance as services are reduced or redirected. Both the National Taxpayer Advocate and the
Government Accountability Office have expressed concerns about this lack of data. As the IRS
redirects taxpayers to electronic and self-help services, it needs to know what services taxpayers
most need or want and if the anticipated cost savings and efficiencies will result in an increase in
the taxpayers’ burden as they try to remain or become compliant.

Recommendations
We have made recommendations in prior reports; as a result, we are making no additional
recommendations in this report.

Response
IRS management reviewed our report and appreciates our recognition of the IRS’ improved
customer service in key areas. Despite the progress made, IRS management recognizes there is
still room for improvement and will continue to focus their efforts on providing accurate, timely,
and professional customer service.
While the IRS’ focus on face-to-face service is changing, management agreed that further study
is warranted regarding the impact on taxpayer compliance of any reduction in services. IRS
management is awaiting the results of both our study and one they are conducting called the
Taxpayer Assistance Blueprint (TAB) study. The TAB study will address customer tax
assistance needs and preferences, current service capabilities, and opportunities to effectively

3
 The filing season is the period from January through mid-April when most individual income tax returns are filed.
4
 E-file is a way to electronically file a tax return with the IRS using an authorized IRS e-file provider or personal
computer.
                                                                                                                        2
                                 Taxpayer Service Is Improving,
                        but Challenges Continue in Meeting Expectations



balance service demands with available resources. Management’s complete response to the draft
report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs) (Designee), at
(202) 622-5916.




                                                                                                3
                                            Taxpayer Service Is Improving,
                                   but Challenges Continue in Meeting Expectations




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 7
          Taxpayers Experience Mixed Service When Seeking Face-to-Face
          Assistance .....................................................................................................Page 8
          Taxpayers Experience Improved Service When Calling the
          Toll-Free Telephone Lines............................................................................Page 14
          Taxpayers Experience Faster and More Accurate Tax Return
          Processing Through Internal Revenue Service Modernization Efforts ........Page 18
          Taxpayers Experience More Electronic Service Options .............................Page 22

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 26
          Appendix II – Major Contributors to This Report ........................................Page 28
          Appendix III – Report Distribution List .......................................................Page 29
          Appendix IV – Treasury Inspector General for Tax Administration
          Office of Audit Reports Analyzed (Fiscal Years 2002–2005)......................Page 30
          Appendix V – Management’s Response to the Draft Report .......................Page 37
                                        Taxpayer Service Is Improving,
                               but Challenges Continue in Meeting Expectations




                                               Background

Congress issued a mandate to the Internal Revenue Service to improve service to
taxpayers
Providing quality customer service is the Internal Revenue Service’s (IRS) first step to achieving
taxpayer compliance. One of Congress’ principal objectives in
enacting the IRS Restructuring and Reform Act of 1998              The RRA 98 states the IRS
(RRA 98)1 was to mandate that the IRS do a better job of           shall review and restate its
                                                                   mission to place a greater
meeting the needs of the taxpayers. Congress directed the IRS      emphasis on serving the
to achieve a better balance between its postfiling enforcement     public and meeting
efforts and prefiling taxpayer assistance through education and    taxpayers’ needs.
service.
Congress believes that increasing electronic filing (e-filing or e-file)2 and easier access to the
services provided by the IRS would facilitate improvements in customer service. It determined
that paperless filing should be the preferred and most convenient means of filing tax and
information returns. As such, the RRA 98 specifies that the IRS should set goals to have at least
80 percent of all Federal tax and information returns filed electronically by 2007 and all returns
that are prepared on a computer filed electronically for tax years beginning after 2001.
Also, to increase service to all taxpayers, the IRS was directed to expand the IRS telephone help
line options. The IRS was required to provide all callers on the IRS telephone help lines with the
option of having their questions answered in Spanish. During normal business hours, taxpayers
also have the option to talk to a live person, in addition to hearing any applicable recorded
messages.
Congress also wanted to make it easier for those taxpayers and their advisors needing
face-to-face assistance from the IRS. They directed the IRS to list the telephone numbers and
addresses of local IRS offices in local telephone books.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  E-file is a way to electronically file a tax return with the IRS using an authorized IRS e-file provider or personal
computer.
                                                                                                                 Page 1
                                                       Taxpayer Service Is Improving,
                                              but Challenges Continue in Meeting Expectations



 The IRS set goals for improving taxpayer service
 The IRS’ mission is to provide America’s taxpayers top-quality service by helping them
 understand and meet their responsibilities and by applying the tax law with integrity and fairness
 to all. As defined by the Treasury Inspector General for Tax Administration (TIGTA), providing
 quality taxpayer service operations remains among the major management challenges the IRS
 faces in Fiscal Year 2006. One of the three goals in the IRS Strategic Plan 2005–2009 is to
 improve taxpayer service. To help achieve this goal, the IRS plans to improve service options,
 facilitate participation in the tax system by all sectors of the public, and simplify the tax process.
 The Wage and Investment (W&I) Division describes its customer base as being comprised of
 over 122 million taxpayers accounting for approximately 94 million tax returns. The
 W&I Division taxpayer service activity includes Electronic/Correspondence Assistance and
 Field Assistance; Media and Publications and Stakeholders Partnerships, Education, and
 Communication (SPEC); and Submission Processing.
                                             Figure 1: W&I Division Organization Chart

                Director, Earned Income Tax Credit and
                       Health Coverage Tax Credit                                                                               Counsel
                                                                          COMMISSIONER
                                                                       DEPUTY COMMISSIONER
                   Executive Leader, Special Projects
                                                                                                                        Division Information
                   Executive Leader, Special Projects                                                                           Officer




                                           Director,                                              Director,                    Director,
                                                                    Director,
                                     Strategy & Finance                                       Business Systems               Human Capital
                                                                 EEO & Diversity
                                                                                                  Planning
                                             Director,
                                             Research

                         Director,
                                                            Chief,                Director,                                                Director,
                    Customer Assistance,                                                                     Director,
                                                     Business Strategist &    Customer Account                                            Compliance
                     Relationships and                                                                   Program Analysis
                                                      Business Architect       Services (CAS)
                     Education (CARE)

                                                  Director,
                        Director,                   Field
  Director,                                                          Director,                              Director,         Director,      Field Directors,    Director,
                 Stakeholder, Partnership,        Assistance                              Director,
  Media &                                                         Deputy Director,                         Submission         Filing &        Compliance         Reporting
 Publication    Education, Communication                             Accounts         Joint Operations                                                           Compliance
                                                   Director,                                               Processing         Payment           Services,
                         (SPEC)                                    Management              Center
                                                  Embedded                                                                   Compliance         Andover,
                                                   Quality                                                                                   Atlanta, Austin,
 Directors,                                                                                                                                      Fresno,
               Director,                           Business                                               Field Directors,                                        Director,
Distribution,                    Directors,                        Field Directors,                                                           Kansas City
                Field                             Integration                                               Submission                                             Deputy
 Tax Forms                      Product and                           Accounts
              Operations                                                                                    Processing,                                           Director,
    and                         Partnership                         Management,
                                                    Area                                                      Centers,                                            Filing &
Publications,                  Development,                           Andover,
                                                  Directors,                                             Andover, Atlanta,                                        Payment
 Publishing,                     Strategic                         Atlanta, Austin,
                                                    Field                                                     Austin,                                            Compliance
                                 Planning                           Brookhaven,
                   Area                           Assistance,                                               Cincinnati,                                         Modernization
                                                                     Cincinnati,
                Directors,                       Greensboro,                                                  Fresno,                                              Office
                                                                       Fresno,
               SPEC Areas                          Hartford,                                               Kansas City,
                                                                    Kansas City,
                  Dallas,                        New Orleans,                                                Memphis,
                                                                      Memphis,
               Greensboro,                         Oakland,                                                   Ogden,
                                                                       Ogden,
               Indianapolis,                       Phoenix                                                 Philadelphia
                                                                    Philadelphia
                 Phoenix


Source: W&I Division Intranet web site as of July 2005. EEO = Equal Employment Opportunity.

                                                                                                                                                                     Page 2
                                  Taxpayer Service Is Improving,
                         but Challenges Continue in Meeting Expectations



W&I Division taxpayers earn wages and have
investment income. Almost all of the income for this
group is reported by third parties, and the vast majority
of taxes are collected through third-party withholding.
Most individual taxpayers deal with the IRS only when
they file their tax returns, and approximately 80 percent
receive refunds and are highly compliant. Over one-half
of these taxpayers prepare their own tax returns,
presenting a great opportunity for the W&I Division to
provide top-quality service to a large number of
taxpayers that otherwise would not receive assistance.
In 2001, the IRS established a set of balanced
performance measures: employee satisfaction, customer
satisfaction, and business results. As part of its strategic planning and budgetary processes, the
IRS uses these measures to establish performance goals each fiscal year. To measure its
customer service, the IRS uses a quality measurement system called Embedded Quality, which
links employee performance to organizational results related to the quality of customer service.
The Embedded Quality system is used to measure customer accuracy for many IRS services,
including the toll-free telephone lines and Taxpayer Assistance Center (TAC) assistance.
Taxpayers have several options to choose from when they need assistance from the IRS,
including face-to-face assistance at the TACs, telephone assistance through the toll-free
telephone lines, and Internet access and email through IRS.gov. Taxpayers can also get
assistance though the IRS’ Volunteer Income Tax Assistance (VITA) and Tax Counseling for the
Elderly (TCE) Programs. Figure 2 shows the activity for taxpayer assistance reported by the IRS
for Fiscal Year 2005.




                                                                                             Page 3
                                       Taxpayer Service Is Improving,
                              but Challenges Continue in Meeting Expectations



                     Figure 2: Fiscal Year 2005 IRS Taxpayer Assistance

                                                                     VITA and TCE
                           TAC Contacts                             Program Assisted
                            (7 Million)                                Taxpayers
                                                                       (2 Million)



                                              Fiscal Year 2005
                                                 Taxpayer
                                                 Assistance




                          Web Downloads                               Toll-free Calls
                           (158 Million)                               (59 Million)



                  Source: IRS data sources.

The Field Assistance Office has overall responsibility for the TACs. It provides professional
assistance, education, and compliance services to customers that desire face-to-face interaction.
At the IRS’ approximately 400 TACs, taxpayers are able to ask tax law questions, get account
information, receive assistance with their accounts, and, if their income is less than a certain
amount ($36,000 for Calendar Year 2005), have tax returns prepared.
The SPEC Office has overall responsibility for the VITA and TCE Programs. During the
2005 Filing Season,3 5,019 VITA and 9,128 TCE sites were involved in the preparation of over
2 million tax returns. These Programs provide no-cost Federal tax return preparation and e-filing
to underserved segments of individual taxpayers, including low-income, elderly, disabled, and
limited-English-proficient taxpayers. These taxpayers are frequently involved in complex family
situations that make it difficult to correctly understand and apply the tax law.
The IRS Customer Account Services (CAS) Office has overall responsibly for the IRS Toll-Free
Telephone Program. The IRS toll-free telephone system is a primary contact method that
millions of taxpayers choose when seeking answers to tax law questions or trying to resolve
account issues. Taxpayers who call the IRS can receive automated services (i.e., recorded



3
  The 2005 Filing Season relates to the processing of Tax Year 2004 tax returns. The filing season is the period
from January through mid-April when most individual income tax returns are filed.
                                                                                                             Page 4
                                       Taxpayer Service Is Improving,
                              but Challenges Continue in Meeting Expectations



information and interactive applications4) or choose to speak with a live assistor. During the
2005 Filing Season, the IRS staffed 10,614 assistors to answer the telephones at 26 call centers
located throughout the United States and Puerto Rico. These assistors were trained to answer
taxpayer questions involving tax law5 and other related tax account conditions such as refunds,
balance due billing activity, and changes to the amount of tax owed.
The IRS processes most individual income tax returns
and issues most tax refunds during the filing season.
                                                                           “The IRS must find a way to
The filing season presents many challenges to the IRS,                    digest and explain the tax laws
including implementing new tax law changes,                                 in a way that taxpayers can
processing tax returns on schedule, and timely issuing                     understand, and enforce it.”
tax refunds.
                                                                           (National Taxpayer Advocate)
The IRS processes individual income tax returns in
seven Submission Processing sites located throughout
the country. Tax returns and related schedules are processed through the IRS’ computer system
and recorded on each individual’s tax account at these sites. The IRS’ computer system is made
up of a complex series of processing subsystems that are nationally linked and programmed to
check the validity and accuracy of the return data provided. If an error is found, the IRS sends
the taxpayer a notice that requests additional information or explains any change(s) made to the
amount of the tax due or the refund.
Seventy-five percent of all tax returns filed are for individuals. The IRS continues to process
about one-half of these individual tax returns manually. This requires IRS employees to
manually transcribe information into the IRS’ computer system. The IRS is encouraging
taxpayers to e-file because it does not have to transcribe electronic tax return information and
built-in e-file checks eliminate many errors the IRS has to deal with when processing paper tax
returns, such as computational mistakes and incorrect Social Security Numbers.
IRS.gov is of growing importance to the IRS and its customers. The IRS is using the Internet to
meet taxpayer demands for quick access, user-friendly tools, and better service. It allows
taxpayers to instantly download hundreds of tax forms and publications, access current
information on tax issues and e-filing, and ask tax law and IRS procedural questions. In
addition, the IRS has provided and promoted free online tax preparation and e-filing through
commercial tax return preparation companies located on IRS.gov. This program is called the
Free File Program.




4
  For callers using a touch-tone telephone, the Telephone Routing Interactive System can provide automated refund
status information, permit callers to obtain a payoff amount for an outstanding balance due, or enable callers to set
up an installment agreement to settle a delinquent tax debt.
5
  Only eight of the call centers handle tax law questions.
                                                                                                              Page 5
                                      Taxpayer Service Is Improving,
                             but Challenges Continue in Meeting Expectations



The 2004 IRS Oversight Board Tax Compliance Study 6 reported that the most heavily relied
upon sources of tax information and advice are IRS representatives (82 percent of those surveyed
see them as very/somewhat valuable), IRS printed publications such as brochures (82 percent),
and the IRS web site (77 percent). The IRS Oversight Board reported in its 2004 Taxpayer
Attitude Survey that over one-half of the respondents view toll-free telephone service,
face-to-face service, the web site, and email as customer services important to taxpayers.
Ninety percent of those surveyed stated that visiting an office location where an IRS
representative could answer a question was very important or somewhat important to them.
In addition to the importance taxpayers place on the services provided by the IRS, taxpayer
satisfaction with those services has improved. In a survey conducted by the University of
Michigan Business School’s National Quality Research Center for the American Customer
Satisfaction Index (ACSI),7 the IRS shows continued improvement in its services. Overall,
customer satisfaction for “All Individual Tax Filers” has remained stable at around 64 percent.
“Individual Electronic Tax Filers” lead in customer satisfaction, with a 78 percent customer
satisfaction rate.
Our assessment of customer service focused on individual taxpayers in the W&I Division in
four key taxpayer service areas: face-to-face assistance; toll-free telephone assistance; tax return
processing; and e-Services, including IRS.gov. This review was performed at the TIGTA office
in Atlanta, Georgia, during the period January through November 2005.
Our assessment includes information derived from prior TIGTA Office of Audit reports issued in
Fiscal Years 2002–2005.8 Appendix IV provides a complete list of the reports analyzed. We
used Fiscal Year 2002 to baseline customer service and compared it to Fiscal Years 2003–2005
results. Detailed information on our audit objective, scope, and methodology, is presented in
Appendix I. Each of the audits was conducted in accordance with Government Auditing
Standards. Major contributors to the report are listed in Appendix II.




6
  The IRS Oversight Board is an independent body charged to provide the IRS with long-term guidance and
direction.
7
  Established in 1994, the ACSI is a uniform and independent measure of household consumption experience. A
powerful economic indicator, the ACSI tracks trends in customer satisfaction and provides valuable benchmarking
insights of the consumer economy for companies, industry trade associations, and government agencies.
8
  Three reports were not issued until Fiscal Year 2006; however, the audit work was completed in Fiscal Year 2005.
                                                                                                           Page 6
                                               Taxpayer Service Is Improving,
                                      but Challenges Continue in Meeting Expectations




                                               Results of Review

The IRS is making progress in improving customer service in the four key areas of taxpayer
service and is working toward its goals. Some improvements have been made on the accuracy of
answers provided to taxpayers’ tax law and account inquiries. Access to the toll-free telephone
lines has been noteworthy, and tax returns are being processed on schedule and refunds issued
more quickly. For the 2005 Filing Season, e-filed tax returns exceeded paper-filed tax returns for
the first time. In addition, electronic services are increasing, as is the growth in information
provided on IRS.gov.
However, the IRS faces challenges in meeting several of its taxpayer service goals and
expectations. The W&I Division’s strategy is to improve quality, efficiency, and service
delivery while reducing taxpayer burden and seeking to expand options for e-filing, paying, and
communicating with the IRS. At the same time, the IRS is reducing face-to-face services and
encouraging taxpayers to use other, less costly services, such as the toll-free telephone lines and
IRS.gov. As shown in Figure 3, TAC contacts have decreased 30 percent, while electronic
services, such as Where’s My Refund?, have shown significant increases.
                                      Figure 3: Taxpayer Assistance Activity

               180                                                                                                          169
                                                                                                 153
               160
               140
               120                                                  103
    Millions




               100
                80                        67
                60               47                       45
                           33                       35                          37     34                    33
                40
                20   10                        9                           8                           7          26
                                                                                                                       22
                                      1                        12                           15
                 0
                          Fiscal Year 2002         Fiscal Year 2003            Fiscal Year 2004            Fiscal Year 2005
                                TAC Contacts                              Toll-Free Assistor Calls Answered
                                Automated Calls                           Online Where’s My Refund?
                                IRS.gov Visits

Source: IRS management information reports.

The W&I Division states it has committed a significant amount of resources to help improve
service to taxpayers. Since Fiscal Year 2002, the W&I Division taxpayer service budget has
increased 14 percent, from $1.09 to $1.24 billion, but the IRS is expecting a decrease in the
                                                                                                                            Page 7
                                  Taxpayer Service Is Improving,
                         but Challenges Continue in Meeting Expectations



taxpayer assistance budget for Fiscal Year 2006 as more funding is allocated to compliance
activities. As America’s population ages and becomes more diverse at the same time the
environment is moving to more technology and electronic services, the IRS will be challenged to
provide the right mix of services to meet taxpayer demands.

Taxpayers Experience Mixed Service When Seeking Face-to-Face
Assistance
The TACs are the main method the IRS uses to provide taxpayers with face-to-face assistance on
tax matters. The taxpayer experience has improved, and there has been some improvement in
the accuracy of responses to taxpayers’ tax law questions and in the preparation of tax returns.
However, the variety of services is declining as the IRS is moving toward more compliance
activities and self-help electronic services. Some of the decline in face-to-face services will be
lessened through the coalitions made through the VITA and TCE Programs. Currently, however,
the VITA and TCE Programs focus mostly on tax preparation assistance to low-income and
elderly taxpayers during the filing seasons.

The IRS has improved the quality of taxpayer service in the TACs
Although the variety of services offered at the TACs is declining, the quality of taxpayers’
experiences has improved. For example, taxpayers:
•   Have several alternatives by which to obtain the telephone numbers and addresses for local
    IRS offices: the Toll-Free Customer Service telephone number (1-800-829-1040), IRS.gov,
    and various publications. The IRS has made significant progress in publishing the telephone
    numbers and addresses of its TACs in local area telephone books and ensuring the telephone
    numbers are accurate.
•   Are provided professional, courteous assistance generally within fewer than 30 minutes of
    their visits.
•   Can expect an increase in their privacy when visiting the TACs because many TACs have
    been remodeled, allowing taxpayers more privacy when speaking and sharing documents
    with assistors.
•   Have over-the-telephone interpreter services for those with limited English proficiency or
    those who are non-English speaking. When visiting the TACs, taxpayers are provided with
    over-the-telephone interpreter services in over 150 languages.




                                                                                               Page 8
                                     Taxpayer Service Is Improving,
                            but Challenges Continue in Meeting Expectations




The IRS has made improvements in the accuracy of tax law responses and
tax return preparation
The IRS has increased the accuracy of responses to tax law questions by 29 percent (from 51 to
66 percent) based on the body of work the TIGTA completed during the period January 2002
through April 2005. However, the IRS did not meet its 80 percent accuracy goals for
Fiscal Years 2003 and 2004 and experienced nominal improvement in decreasing the number of
incorrect responses given. In
addition, the Fiscal Year 2005         Figure 4: Comparison of Tax Law Response
accuracy goal of 81 percent was       Accuracy    Rates for Filing Seasons 2002–2005
not met. Figure 4 shows the
                                                       Correctly Answered Questions
results of the tax law reviews.
The Field Assistance Office has                  70%
                                                                70%
not established a baseline for                                             67%   66%
                                                 Percentage Correct




                                                 60%
measuring its tax preparation                    50%
                                                         51%
program; however, results                        40%
from the 2003 through                            30%
                                                 20%
2005 Filing Season reviews show
                                                 10%
improvement in the accuracy of                    0%
tax return preparation. The                            2002   2003       2004  2005
2005 Filing Season review9                                     Filing Season
showed TAC assistors, as
required, either helped taxpayers      Source: TIGTA audits.
with the preparation or ensured
that taxpayers prepared an IRS Return Preparation Checklist Sheet, reviewed completed tax
returns with taxpayers, and provided taxpayers with completed copies of their tax returns. The
accuracy rate of tax returns prepared improved, with 37 (79 percent) of 47 tax returns tested
correctly prepared.

IRS assistors are provided tools to assist them when responding to taxpayer
inquiries
We believe accuracy rates will not improve if employees continue to answer tax law questions
and prepare tax returns without using the tools provided by IRS management to address taxpayer
questions and issues, and if the IRS does not implement an effective quality review program.
IRS employees are required to use the Publication Method Guide or obtain the appropriate
publication, discuss specific information related to the topic, ask appropriate questions to obtain
facts when assisting a taxpayer, and then respond to the taxpayer’s issue or question. Our

9
  Coordination and Monitoring Are Needed for Continued Improvement in the Tax Return Preparation Process at
the Taxpayer Assistance Centers (Reference Number 2005-40-147, dated September 2005).
                                                                                                      Page 9
                                  Taxpayer Service Is Improving,
                         but Challenges Continue in Meeting Expectations



reviews have shown that employees did not always use the tools provided or ask questions
sufficient to answer the taxpayers’ questions correctly. They also answered questions they were
not trained to answer.
Assistors are trained and expected to be knowledgeable in 318 tax law topics with 395 subtopics.
They are expected to respond to taxpayer issues for the current year and prior years. TAC
assistors are required to use the Publication Method Guide or tax instructions, forms, and
publications to provide the answers to tax law questions and to prepare tax returns. The Guide
contains over 1,000 pages and covers approximately 77 tax law topics. Assistors are required to
use the Guide as a tool to navigate through the complex maze of tax laws and computations. It is
available either in paper or electronically. For each in-scope tax law topic, an assistor uses the
Guide to ask a taxpayer approximately 9 to 37 conditional questions to determine the correct
answer to the tax law questions or to help prepare a tax return. In addition, the Guide includes
excerpts from tax publications assistors can use to “walk” the taxpayer through to provide an
answer to the question.

The IRS is implementing a quality review process to effectively measure the
progress made to improve taxpayer service in the Field Assistance Office
The IRS has not had a process in place to effectively measure the progress made to improve
customer service. However, the IRS has taken several actions to implement a quality review
program to identify ways to improve the accuracy and quality of services provided at the TACs.
In October 2003, the Field Assistance Office began implementing the Embedded Quality system
and began collecting data in April 2004. The Embedded Quality system requires group
managers to observe assistors’ contacts with taxpayers and to measure performance against
predetermined standards.
However, the Embedded Quality data are inconsistent, contain errors, and are currently not
statistically valid. Group managers did not follow the required sampling plan. In addition,
managerial observations introduce bias, inhibiting the accurate assessment of employee
performance. This is a new program, and sufficient internal controls had not been developed and
implemented to ensure that the sampling plan is being followed and the results validated and
monitored. Also, there are insufficient resources in the Quality Assurance function to assess the
risks and effectiveness of controls.
The Field Assistance Office is moving in the right direction with the implementation of both
short- and long-term strategies to improve the statistical validity and reliability of Embedded
Quality data. In addition, the IRS is planning to replace managerial observations with Contact
Recording, which captures the audio portion of the employee/customer interaction, synchronized
with computer screen activity, for replay and quality review. Current projections call for Contact
Recording to be fully implemented in Fiscal Year 2008. We believe the Embedded Quality
system with Contact Recording, when appropriately working and managed, can provide a


                                                                                          Page 10
                                      Taxpayer Service Is Improving,
                             but Challenges Continue in Meeting Expectations



consistent methodology for all group managers to evaluate performance, establish baselines, and
identify root causes of defects in employee interactions with taxpayers.

The IRS is encouraging taxpayers to use alternative service methods that are
more cost effective
The IRS’ focus on its face-to-face service is changing, and the Field Assistance Office is shifting
from educating and assisting taxpayers in prefiling activities to providing more postfiling
activities. The IRS reports that there has been a decrease in overall TAC contacts. In addition, it
is offering fewer services at the TACs. The TACs no longer offer taxpayer account transcripts to
customers (except in hardship cases) and limit the preparation of tax returns to those under a
certain income limit ($36,000 for Calendar Year 2005). TAC assistors are not trained on all tax
law topics, and, when taxpayers visit the TACs with questions that are not in the scope of the
assistors’ training, the assistors refer them to an IRS toll-free telephone number or submit the
questions in writing to subject-matter experts via the Internet or through correspondence.
In response to the declining TAC contacts and decreasing funding, the IRS may permanently
close a number of TACs. In May 2005, the IRS announced plans to close 68 TACs by the
beginning of Fiscal Year 2006. In announcing the planned closures, the IRS stated that
taxpayers will have continued access to tax forms, information, and tax preparation through
IRS.gov, telephone assistance, and volunteer tax return preparation. In addition, the IRS stated
that personal, face-to-face assistance will continue to be available in a number of TACs,
although some taxpayers may need to travel a little farther.
Plans to close any TACs were suspended in July 2005 when anticipated language in the
Fiscal Year 2006 Appropriations Bill10 stated that none of the Fiscal Year 2006 funding could be
used to close, consolidate, or reduce the levels of taxpayer service until the TIGTA completes a
study of such taxpayer service reductions. The TIGTA study will give consideration to the
effects of the proposed reductions on taxpayer service and compliance, and the report from the
study will be submitted to the Committees on Appropriations of the House of Representatives
and the Senate.
The Field Assistance Office Concept of Operations provides the vision for “Helping Taxpayers
Help Themselves” and supports E-government.11 The Concept of Operations outlines plans to
offer self-help mechanisms and technology-driven services, including kiosks and virtual TACs.12
It calls for converting the current TACs with one or two employees into Virtual TACs. In the


10
   On October 20, 2005, the Senate requested a conference to resolve differences in the Fiscal Year 2006
Appropriations Bill; however, both the House and Senate versions of the Bill include provisions that would stop the
IRS from moving ahead with the closures pending further study.
11
   E-government is one of the five Government-wide initiatives of the President’s Management Agenda.
12
   A virtual TAC provides all services electronically; is self-help; and has a computer, telephone, and/or kiosk so
taxpayers can help themselves.
                                                                                                          Page 11
                                         Taxpayer Service Is Improving,
                                but Challenges Continue in Meeting Expectations



Virtual TACs, taxpayers will be
provided self-services for making                                 Figure 5: Virtual TACs
noncash payments, ordering
publications and forms, and                                      Virtual TACs
obtaining tax law assistance.                    Self-Assist            Assisted        Technology-
Most of the self-service can be                  • Return Prep          • Account        Enabled
                                                 • Tax Law Assistance Management         Face-to-Face
performed through                                • Information & FAQs                   • Compliance
Internet-connected kiosks. The                   • Compliance                           • Account
Virtual TACs will also have                      • Forms & Publications                  Management
                                                   order point
available technology-enabled                     • Non-cash payments
face-to-face assistance to help
taxpayers with their compliance                                                Internet        Video
and accounts management needs;                         TBD          Phone   Enabled Kiosk    Conference

this will be accomplished through               Source: Field Assistance Office CARE Concept of Operations.
video conferencing.

The IRS is improving its VITA Program and received an award for its
community-based partnerships
The Tax Reform Act of 196913 resulted in the formation of the VITA Program. Emphasis has
continually focused on expanding the VITA Program through increased recruitment of social
service, nonprofit, corporate, financial, educational, and government organizations; involvement
of the military on a national level; and expansion of assistance provided to the
limited-English-proficient community. VITA sites are often located at neighborhood centers,
libraries, schools, churches, and shopping malls. During the 2004 Filing Season, the TIGTA
identified that VITA volunteers did not always correctly prepare tax returns and taxpayers did
not always receive accurate information about VITA site locations, hours of operation, and scope
of services from the IRS.
IRS management committed to improving the VITA Program through an improved quality
program. Results of our work conducted in the 2005 Filing Season show the IRS established and
implemented a number of initiatives and processes that have resulted in improvements to the
VITA Program, including the SPEC Office’s increased ability to oversee and monitor the
Program. The SPEC Office is requiring all VITA volunteers, regardless of their professional
background and experience, to pass14 a tax law examination and sign a Volunteer Agreement
(Standards of Conduct - Volunteer Return Preparation Program) (Form 13615); enhancing
training and tax reference materials; developing a multiyear quality business plan; and upgrading
the management information system.


13
     Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
14
     To “pass” an examination, the VITA Program volunteer must earn a score of 70 percent or better.

                                                                                                                Page 12
                                  Taxpayer Service Is Improving,
                         but Challenges Continue in Meeting Expectations



In addition, the SPEC Office began issuing Quality Alerts to proactively address emerging issues
affecting the quality of tax return preparation. The extent to which the Quality Alerts are
reaching the frontline VITA volunteers remains somewhat unanswered because there is no
system in place to ensure all VITA sites and VITA volunteers receive the Quality Alerts.
Challenges remain for an effective quality assurance process. Key controls implemented by the
SPEC Office to help ensure the accuracy of tax returns prepared by VITA volunteers were not
consistently followed. As a result, 23 (66 percent) of the 35 tax returns prepared during our
2005 Filing Season review were incorrect. Reviews of the selected VITA sites showed VITA
volunteers did not always use or refer to intake sheets or resource guides when preparing tax
returns and did not always perform a quality review of the completed tax returns. In addition,
controls developed to ensure VITA site information provided by the IRS is accurate were not
always followed. Furthermore, although a comprehensive quality assurance process was
proposed in response to the prior TIGTA review, a number of obstacles, including stakeholder
concerns about the intrusiveness of an observation process and data collection restrictions, have
prevented the implementation of an effective process.
The IRS, through the SPEC Office, has developed a Community-Based Partnership model that
links Earned Income Tax Credit (EITC) outreach and free tax preparation to asset-building
strategies for low-income families. To date, over 290 local EITC partnerships or coalitions have
been developed. These efforts have provided millions of low-income families with valuable
information on refundable credits available to them through the tax code and have linked
thousands of families to asset-building opportunities.
In recognition of its efforts, the IRS was presented the Connect America 2005 Partner of the
Year Award
The Connect America Partner of the Year Award is presented each year at the National
Conference on Community Volunteering and National Service. An initiative of the Points of
Light Foundation and Volunteer Center National Network,
Connect America is a network of diverse organizations working
together to leverage volunteering and other resources to have a
positive impact in communities. The IRS is the first Federal
Government agency to receive the award. The IRS was
recognized for its community-based partnerships that link
low-income taxpayers with organizations that prepare tax returns for free, ensure they properly
receive tax credits, and assist them with ways to build a financial savings. A Connect America
partner since 2002, the SPEC Office now joins past Connect America Partner of the Year Award
winners – The Salvation Army, Mothers Against Drunk Driving, and the March of Dimes Birth
Defects Foundation.




                                                                                          Page 13
                                       Taxpayer Service Is Improving,
                              but Challenges Continue in Meeting Expectations



Taxpayers Experience Improved Service When Calling the Toll-Free
Telephone Lines
Since Fiscal Year 2002, the IRS has improved access to its toll-free telephone system and
realized productivity and efficiency gains. In addition, assistors continue to provide courteous
and professional service and have improved the accuracy of responses to tax law and tax account
inquiries.

The IRS has improved access to the toll-free telephone lines
The Assistor Level of Service, the relative success rate of taxpayers calling for assistance and
seeking services from an assistor, has improved almost 23 percent since the 2002 Filing Season.15
The IRS’ Assistor Level of Service goal for the 2005 Filing Season was 82 percent. Figure 6
presents a comparison of the Assistor Level of Service for the last four filing seasons.
                    Figure 6: Comparison of the Assistor Level of Service
                              for the 2002–2005 Filing Seasons

                    CAS Office
                                                2002         2003           2004         2005
                    Toll-Free

                    Level of Service           66.6%         82.4%         84.7%        81.7%

                    Goal                         -- 16        66%           79%           82%
                  Source: IRS Enterprise Telephone Data Warehouse.

While the IRS basically achieved its Assistor Level of Service goal in the 2005 Filing Season,
the percentage of taxpayers who received services within 30 seconds (Assistor Response Level)
declined, and the average number of seconds taxpayers waited in the queue before receiving
services (Average Speed of Answer) increased. In addition, the rate at which the taxpayer
navigated the automated menu and then disconnected while waiting to speak to an assistor
(Secondary Abandon Rate) increased from the 2004 Filing Season. However, the Transfer Rate17
has remained fairly constant over the last three filing seasons. Figure 7 shows a comparison of
these measures for the last four filing seasons.




15
   Part of the calculation for the Assistor Level of Service includes the percentage of call attempts made by taxpayers
compared to the number of calls answered by the IRS.
16
   The IRS did not have a Level of Service goal for the 2002 Filing Season.
17
   The Transfer Rate compares the number of calls transferred by assistors to the number of calls handled.
                                                                                                             Page 14
                                       Taxpayer Service Is Improving,
                              but Challenges Continue in Meeting Expectations



                  Figure 7: Comparison of Various Performance Measures
                             for the 2002–2005 Filing Seasons18

                                              Tax Law Calls                               Account Calls
 CAS Office Toll-Free
                                   2002       2003       2004       2005      2002       2003       2004       2005

 Average Speed of
 Answer (seconds)                    160        196        165      190         293        138        206      301
 Assistor Response Level           70.1% 56.9% 63.9% 50.9% 43.8% 56.9% 44.1% 21.4%
 Secondary Abandons                11.1% 10.3%            7.0%      8.5%       15.6%      6.7%      10.4% 13.9%
 Transfer Rate                     38.9% 30.0% 25.5% 25.5% 12.4% 11.1% 10.2% 10.8%
Source: IRS Enterprise Telephone Data Warehouse.

In comparison with prior years, the data in Figure 7 show:
•    In the 2005 Filing Season, taxpayers with tax law questions had a slightly longer average
     wait time (25 seconds) before reaching an assistor for service than those in the 2004 Filing
     Season. However, taxpayers with account questions had to wait an average of 301 seconds
     (over 5 minutes) before they received service by assistors. This was 1 minute and 35 seconds
     (46 percent increase) longer in the 2005 Filing Season than in the 2004 Filing Season. This
     is the longest period during the last four filing seasons that taxpayers had to wait to speak to
     an assistor for service with their accounts. Nevertheless, per the IRS Oversight Board
     2004 Taxpayer Attitude Survey, individuals surveyed were willing to wait an average of
     8 minutes to speak to an assistor.
•    In the 2005 Filing Season, over one-half of the taxpayers with tax law questions received
     assistor service within 30 seconds of waiting. However, for taxpayers with account
     questions, only 21 percent received assistor service within 30 seconds. The percentage of
     taxpayers receiving service within 30 seconds has declined over the last two filing seasons.
•    The percentage of taxpayers with tax law and account questions that hung up while waiting
     for assistor service has increased to 8.5 percent from 7.0 percent (21 percent) and to
     13.9 percent from 10.4 percent (34 percent), respectively. This means that, during the
     2005 Filing Season, more taxpayers became tired of waiting and hung up.




18
  Due to changes in the methodology the IRS used to capture toll-free data, the totals for previous filing seasons in
this chart may not equal the totals presented in previous TIGTA reports.
                                                                                                             Page 15
                                         Taxpayer Service Is Improving,
                                but Challenges Continue in Meeting Expectations



The IRS has improved the accuracy of responses to toll-free telephone system
inquiries
The accuracy rate of responses to toll-free tax law calls has improved, while the accuracy of
responses to toll-free account calls has remained stable over the last 4 years. The IRS accuracy
rates for both exceeded the IRS goals for Fiscal Year 2005. The IRS accuracy rates and goals for
toll-free telephone system tax law and account calls for Fiscal Years 2002–2005 are illustrated in
Figure 8. Fiscal Year 2005 accuracy rates are through April 2005.

                  Figure 8: IRS Toll-Free Telephone System Accuracy Rates


                                 100%
                                  90%
                                  80%
                                  70%
                                  60%
                                  50%
                                  40%
                                  30%
                                  20%
                                  10%
                                   0%
                                        Fiscal Year 2002 Fiscal Year 2003 Fiscal Year 2004 Fiscal Year 2005
               Accounts Accuracy Rate        91%               89%             89%               91%
               Tax Law Accuracy Rates        84%               82%             80%               88%
               Accounts Goals                72%               92%             90%               90%
               Tax Law Goals                 78%               86%             85%               82%

     Source: IRS management information reports.

The IRS implemented the Embedded Quality system on its toll-free telephone operations
beginning with the 2003 Filing Season. The IRS Centralized Quality Review Site measures the
service provided by toll-free telephone assistors by listening to a statistically valid sample of live
taxpayer calls from among the various Applications.19
Although the IRS reached its accuracy goals for Fiscal Year 2005, it still recognizes that the
complexity of the tax law presents challenges. The IRS has provided numerous tools to help
assistors accurately answer taxpayer tax law inquiries. One tool assistors use is the Probe and



19
  To ensure quality service, the IRS groups or categorizes calls by topics called Applications and by W&I Division
and Small Business/Self-Employed Division taxpayers. There are a total of nine Applications for the General
Account Calls Product Line.
                                                                                                          Page 16
                                    Taxpayer Service Is Improving,
                           but Challenges Continue in Meeting Expectations



Response Guide, which is designed to give assistors scripts to follow to ensure they address all
issues related to a taxpayer’s particular question.
The IRS considers a response “complete and correct” when the assistor obtains sufficient
information to answer the question and gives a correct and complete answer. To be rated as
providing a complete and correct answer for tax law questions, assistors must use all applicable
elements of the Probe and Response Guide to respond to the questions or must interpret the tax
law correctly for those questions without an applicable Probe and Response Guide script.
In our most recent review of the IRS’ Toll-Free Tax Law Telephone Product Line
(the 2004 Filing Season review), assistors did not provide taxpayers with correct or complete
answers to their tax law questions for 122 (38 percent) of 322 calls monitored.20 Of these
122 calls, it is probable that 97 (80 percent) taxpayers would have received a correct and
complete answer if the assistor had thoroughly used the Probe and Response Guide and obtained
sufficient information from the taxpayers.

The IRS has opportunities to enhance the taxpayer experience
Although taxpayer access to its toll-free telephone services improved, the IRS has opportunities
to further enhance the taxpayer experience and reduce the costs of providing toll-free telephone
services. A major improvement opportunity involves the continuing difficulties with the menu.
For example, when calling 1-800-829-1040 with a tax law or account-related question, the
taxpayer is provided, in English or Spanish, four touchtone main automated menu options with
secondary options:
     1. Preparing or filing individual income tax returns. This option provides the taxpayer with
        a second automated menu from which to choose the following options: (a) ordering tax
        forms or publications, (b) finding IRS addresses to which to mail tax returns or payments,
        or (c) getting help with other tax questions.
     2. Requesting information on a tax refund or personal tax account. This option provides the
        taxpayer with a second automated menu from which to choose the following options:
        (a) questions concerning a refund or (b) questions concerning a personal account.
     3. Using the business and specialty tax line or obtaining the address for the IRS Internet
        web site.
     4. Repeating the above options.
If the taxpayer chooses option # 1 and (c), getting help with other tax questions, the taxpayer first
speaks to a screener before the call is transferred to an assistor to answer the tax law question. If
the taxpayer has questions that cover more than one tax topic, the taxpayer may be transferred

20
 Additional Effort Answering Tax Law Questions Would Improve Customer Service (Reference
Number 2004-40-150, dated August 2004).
                                                                                            Page 17
                                      Taxpayer Service Is Improving,
                             but Challenges Continue in Meeting Expectations



multiple times before obtaining answers to all of his or her questions. This happens because
assistors specialize and are trained only in specific topics. Each transfer could require the
taxpayer to wait for the next available assistor.
In addition, the IRS still does not have a financial system that will accurately track its
cost-per-call of providing various toll-free telephone services. While some efforts have been
made in this direction, none have been finalized. Without accurate cost-per-call measurements
for each of the various toll-free telephone services the IRS provides, management and key
stakeholders do not have sufficient information with which to evaluate the efficiency of toll-free
telephone system operations, the return on investment in technology and human capital, and the
costs and benefits of key program decisions.
The IRS had planned to reduce toll-free telephone hours of operation in Fiscal Year 2006. The
Customer Account Services function will have about 400 fewer Full-Time Equivalents21 for
toll-free telephone operations than it had in Fiscal Year 2005, due to plans to reduce operating
hours from 15 to 12 hours per day. However, the IRS is determining if it will reduce the toll-free
hours of operation and when the new hours would take effect.

Taxpayers Experience Faster and More Accurate Tax Return
Processing Through Internal Revenue Service Modernization Efforts
For the last four filing seasons, the IRS has done a good job of timely and accurately processing
tax returns. Each filing season, the IRS is confronted with the challenge of processing tax
returns while implementing any new tax law changes. Changes to the tax law can have a major
effect on how the IRS conducts its activities, how many resources are required, and how much
progress can be made on strategic goals. Generally, Congress makes changes to the tax law each
year, so some level of change is a normal part of the IRS environment. However, certain kinds
of changes can have significant effects on the IRS in terms of the quality and effectiveness of
service and how taxpayers perceive the IRS. The IRS must identify the tax law changes; revise
the various tax forms, instructions, and publications; and reprogram its computer system to
ensure returns are accurately processed.
Overall, the IRS has:
•    Processed tax returns on schedule.
•    Issued refunds within the required 45 days of the return due date.
•    Correctly implemented most of the key tax law changes that affect individual income tax
     returns.


21
  A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2005, 1 Full-Time Equivalent is equal to 2,088 hours.
                                                                                                           Page 18
                                   Taxpayer Service Is Improving,
                          but Challenges Continue in Meeting Expectations



The IRS issued over 94 million refunds totaling over $199 billion during the 2005 Filing Season.
In addition, each year more taxpayers are taking advantage of the benefits of IRS e-file. During
Fiscal Year 2005, for example:
•   More than one-half of all taxpayers—over 68 million individual income tax returns,
    an increase of 11 percent—e-filed their tax returns. As a result, the IRS met its
    Fiscal Year 2005 goals for the number and percentage of individual tax returns e-filed.
•   Forty-eight million returns—an increase of 11 percent—were filed through an authorized
    e-file provider.
•   Seventeen million taxpayers—an increase of almost 18 percent—filed their returns online
    from home.
•   Five million taxpayers—an increase of 47 percent—filed for free using the Free File
    Program. The Free File Program happens through a partnership agreement between the IRS
    and the Free File Alliance, LLC.
•   Three million people used the TeleFile Program—a decrease of almost 13 percent. The
    TeleFile Program allowed taxpayers to file simple tax returns by telephone.
Figure 9 on page 20 shows the statistics for the last 4 fiscal years.




                                                                                          Page 19
                                      Taxpayer Service Is Improving,
                             but Challenges Continue in Meeting Expectations



                          Figure 9: Paper Versus E-Filed Tax Returns


                      140,000,000
                      120,000,000
                      100,000,000
                        80,000,000
                        60,000,000
                        40,000,000
                        20,000,000
                                  0
                                        Fiscal Year      Fiscal Year       Fiscal Year      Fiscal Year
                                           2002             2003              2004             2005
           Electronic Tax Returns       46,816,865        52,812,890       61,214,499        68,021,843
           Paper Tax Returns            84,088,024        77,915,470       68,557,501        63,370,157
           Total Tax Returns            130,904,889      130,728,360       129,772,000      131,392,000

     Source: IRS management information reports.

IRS modernization will allow for faster refunds and improved taxpayer service
The IRS is working toward replacing its antiquated computer system (the Master File22) that
came into use four decades ago. The age and complexity of the Master File system cause delays
and inaccuracies in providing service to taxpayers. Updates to taxpayers’ account information
on the Master File system occur on a weekly basis, and some updates require multiple weekly
cycles to complete. Because current data are not available to IRS employees, taxpayers may be
given incorrect information about their accounts. The Master File system will be replaced with
the Customer Account Data Engine (CADE).
The CADE is the foundation for managing taxpayer accounts in the IRS’ modernization plan. It
consists of current and planned databases and related applications that will eventually replace the
existing IRS Master File system. When fully operational, the CADE will house tax information
for more than 200 million individual and business taxpayers. The CADE is designed to post
information to taxpayers’ accounts on a daily rather than weekly basis. Taxpayers should


22
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organization data.
                                                                                                          Page 20
                                      Taxpayer Service Is Improving,
                             but Challenges Continue in Meeting Expectations



receive refunds faster, and IRS employees should be able to provide improved service to
taxpayers by having up-to-date, accurate account information available.
As paper and electronic tax returns are received by the IRS at various Submission Processing
sites across the country, the return information is input to the IRS return processing computer
system. This system validates certain taxpayer identifying information and checks the returns for
mathematical errors. After the return information has been validated and errors have been
corrected, the sites send the information to the IRS Computing Centers23 to be posted to
taxpayers’ accounts. In the past, this account information was all posted to the Master File
database, the repository for all tax accounts. The CADE is gradually replacing this database.
The first phase of the CADE, for individual taxpayer accounts, is to be implemented in a series
of releases over several years. The first CADE release, Release 1.1, began posting the simplest
individual tax return information in July 2004. Release 1.2 was delivered in January 2005.
Figure 10 provides the results of the TIGTA review of CADE Release 1.2. It shows paper check
refunds for those tax returns posted to the CADE were issued 8 days faster than for those tax
returns posted to the Master File. Direct deposit refunds for returns posted to the CADE were
issued 4 days faster than for those tax returns posted to the Master File. Figure 10 also shows the
average calendar days to receive a refund based on whether the taxpayer received the refund by
direct deposit, a paper check, or a combination.
                         Figure 10: Average Calendar Days to Refund24




         Refund Type                     Master File                 CADE              CADE = Faster Refunds
 Paper Check                               18 Days                   10 Days                 8 Days Faster
 Direct Deposit                            11 Days                   7 Days                  4 Days Faster
 Combined                                  15 Days                   9 Days                  6 Days Faster
Source: TIGTA review of sample tax returns.




23
   The IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
24
   We determined the number of calendar days from the date the Submission Processing site sent the return
information for posting to the date the refund was issued. These are the average days for our judgmental sample of
cases, which may not reflect the overall Master File or CADE population.
                                                                                                          Page 21
                                       Taxpayer Service Is Improving,
                              but Challenges Continue in Meeting Expectations



Taxpayers Experience More Electronic Service Options
The IRS has established the IRS E-Strategy for Growth, and each year more taxpayers take
advantage of electronic services offered by the IRS. The Strategy focuses on electronic
initiatives for external customers and states:
         The future vision of IRS electronic tax administration is one in which any exchange or
         transaction that currently occurs in person, over the [tele]phone, or in writing can be
         accomplished electronically.
The IRS is striving to implement and enhance the services offered to taxpayers and practitioners
who wish to do business with the IRS by electronic means. Since 2002, the IRS has developed
and implemented:
•    A suite of e-Services25 in an attempt to “make taxes easier” by providing taxpayers and their
     representatives increased options for electronic transactions and communications with the
     IRS to file returns, make payments, and receive tax assistance. The IRS now provides
     practitioners with online tools to provide better service to their customers, such as electronic
     account resolution, transcript delivery, and disclosure authorization.
•    The Free File Program, which provides and promotes free online tax preparation and e-filing
     through commercial tax return preparation companies accessed through a link on IRS.gov.
     For Fiscal Year 2005, the IRS had accepted 5 million Free File Program returns, an increase
     of 47 percent from last year.
•    The interactive application, Where’s My Refund, on IRS.gov that allows taxpayers to
     determine if their refunds have been processed and, if processed, approximately when to
     expect the refund. In Fiscal Year 2005, over 22 million taxpayers successfully received their
     refund information, an increase of almost 50 percent for the same period in Fiscal Year 2004.
•    The application, Remember Your Advance Child Tax Credit, on IRS.gov that allows
     taxpayers to check the amount of their child tax credit. Approximately 149,000 taxpayers
     used this application during Fiscal Year 2005.
•    Interactive applications on IRS.gov that help taxpayers calculate taxes and credits. For
     example, taxpayers can calculate withholding credits or determine eligibility for and the
     amount of the EITC.
IRS.gov continues to be one of the most visited web sites in the world, especially during filing
seasons. For example, taxpayers downloaded over 94 million forms in the 2005 Filing Season.
Figure 11 shows the IRS.gov visits and page views over the last four filing seasons.


25
  E-Services is a suite of web-based products that allow tax professionals and payers, as well as States and other
partners, to do business with the IRS electronically 24 hours a day, 7 days a week, via the Internet.
                                                                                                            Page 22
                                     Taxpayer Service Is Improving,
                            but Challenges Continue in Meeting Expectations



                                     Figure 11: IRS.gov Activity
                  Millions
                                                                                               855
                      900
                      800
                      700                                                      606

                      600
                      500                                      392
                      400
                      300                  207
                      200                                              91              116
                                37                  60
                      100
                      -
                             2002 Filing         2003 Filing         2004 Filing     2005 Filing
                              Season              Season               Season         Season
                                      IRS.gov Visits       IRS.gov Page Views
          Source: IRS management information reports.

These services support the e-Government goal to champion citizen-centered electronic
government that will result in a major improvement in the Federal Government’s value to the
citizens. Expanded Electronic Government is one of initiatives in the President’s Management
Agenda.
Two IRS electronic programs were finalists for the 2005 Excellence.Gov Award
The IRS had two of its electronic programs selected as 2005 Excellence.Gov Award finalists.
On February 9, 2005, IRS.gov and the Modernized
e-File Project were honored as two of the “Top 25”
Excellence.Gov Award Finalists for 2005. These
two IRS programs were selected, in part, because of
their impact on the agency’s ability to deliver on its mission; an effective adoption strategy
demonstrated by measurable results; and evidence of excellent satisfaction among stakeholders,
participants, and end users. The 2 projects were selected from over 80 entries.

Challenges remain for the IRS

The following challenges remain for the IRS:
•   Strengthen enforcement programs while continuing to provide a high level of taxpayer
    service.
•   Obtain the e-file goal by 2007.


                                                                                                     Page 23
                                  Taxpayer Service Is Improving,
                         but Challenges Continue in Meeting Expectations



•   Provide the right mix of customer service.
•   Measure the effect on taxpayer compliance as services are reduced or redirected.
By continuing to improve e-filing, payment and communication services via the Internet, the IRS
envisions the public will be able to conduct the vast majority of tax interactions electronically.
The IRS reports that processing e-filed tax returns costs significantly less than processing paper-
filed tax returns, services provided by telephone cost less than face-to-face services, and self-
help electronic services cost less than those provided by assistors over the telephones. The IRS
hopes that any cost savings resulting from taxpayers switching to electronic services can be
refocused on compliance activities.
However, although e-filing and e-Services have grown, the IRS recognizes that it will not
achieve the goal of having 80 percent of all individual income tax returns filed electronically by
2007. In addition, the growth of e-file is decreasing. It increased 16 percent in 2004 but only
11 percent in Fiscal Year 2005.
Although the IRS has made great strides with IRS.gov and e-Services, it is still working toward
the right mix of services and has to determine what mix is most cost effective and will reach the
most taxpayers. The IRS has over 13,000 pages of information on IRS.gov, including tax
education, tax law guidance, and tax law application. It offers taxpayers several methods to
e-file their tax returns. Nevertheless, the IRS is reducing or eliminating some electronic services.
For example, the IRS has eliminated the TeleFile Program.
The TeleFile Program allowed taxpayers to file certain forms by telephone. The IRS ended the
TeleFile Program on August 16, 2005, citing a decline in use of the Program for most forms,
increasing costs to maintain the system, and the growth of other e-filing options. The IRS
initiated the TeleFile Program on a limited basis in 1992. During the 1996 Filing Season, the
TeleFile Program was offered on a nationwide basis to taxpayers who filed their tax returns
using the Single filing status. During the 1997 Filing Season, the Program was further expanded
to include those taxpayers who filed their tax returns with the Married Filing Jointly status. At
the time of its discontinuance, the TeleFile Program had been expanded to support the telephone
filing of selected United States Individual Income Tax Returns for Single and Joint Filers With
No Dependents (Form 1040EZ) and State individual tax returns, Employer’s Quarterly Federal
Tax Returns (Form 941), and Applications for Automatic Extension of Time to File U.S.
Individual Income Tax Return (Form 4868).
We have also reported that another electronic program, the Kiosk Program, is not appropriately
managed, resulting in inoperable and inefficient kiosks. Kiosks consist of a computer processing
unit, touch-screen monitor, and printer. As an alternative method of obtaining Federal and State
tax forms and answers to frequently asked tax questions in English and Spanish, the IRS
currently offers taxpayers 38 kiosks in 20 States. However, we reported in 2004 that the IRS
cannot determine whether the Kiosk Program provides effective customer service or is cost
effective because of insufficient internal controls and management oversight. In addition, the

                                                                                            Page 24
                                        Taxpayer Service Is Improving,
                               but Challenges Continue in Meeting Expectations



kiosks stand alone and are not networked or connected to the Internet, thus limiting their
functionality and appeal to taxpayers. However, the IRS’ vision for the future of the Kiosk
Program is to provide taxpayers with the ability to self-sufficiently resolve their own tax needs
and decrease the need for taxpayers to seek live assistance from the IRS.
Executive Order 12862,26 “Setting Customer Service Standard,” sets requirements for each
Federal Government agency to identify and survey its customers, post service standards and
measure results against them, and benchmark customer service against the best in the business.
However, the IRS faces significant challenges in determining and providing taxpayers with the
level and types of service they want or require. With decreasing taxpayer service budgets, it is
essential that the IRS determine what the right mix of services might be (e.g., face-to-face or
electronic, self-help or assisted).
The IRS has conducted only limited research on the impact of customer service on taxpayer
compliance. Therefore, there are not sufficient data available to measure the effect on taxpayer
compliance as services are reduced or redirected. Both the National Taxpayer Advocate and the
Government Accountability Office have expressed concerns about this lack of data. As the IRS
redirects taxpayers to electronic and self-help services, it needs to know what services taxpayers
most need or want and if the anticipated cost savings and efficiencies will result in an increase in
the taxpayers’ burden as they try to remain or become compliant.




26
     Executive Order No. 12862, 58 Fed. Reg. 48,257 (September 14, 1993).




                                                                                            Page 25
                                      Taxpayer Service Is Improving,
                             but Challenges Continue in Meeting Expectations



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) improved the quality of customer service to taxpayers when taxpayers obtained assistance
filing their income tax returns and receiving their refunds. The basis for our assessment included
results from Fiscal Years 2002–2005 Treasury Inspector General for Tax Administration
(TIGTA) Office of Audit reports (see Appendix IV). We used Fiscal Year 2002 to baseline IRS
customer service and compared it to Fiscal Years 2003–2005 results. To accomplish our
objective, we:
I.      Determined if the Wage and Investment (W&I) Division met Congressional and taxpayer
        expectations to minimize the burden to taxpayers in satisfying their tax obligations by
        providing the right services at the right location at the right time.
        A. Researched the IRS Restructuring and Reform Act of 19981 and determined if the
           W&I Division took steps to address Congressional concerns related to the quality of
           customer service provided in its programs.
        B. Reviewed the IRS Strategic Plan 2005–2009 and the W&I Division’s 2004–2005
           Strategy and Program Plan to determine current strategies, goals, and objectives.
        C. Reviewed the Concept of Operations for customer service.
        D. Researched reports issued in Fiscal Years 2002–2005 on IRS customer service by the
           National Taxpayer Advocate, the IRS Oversight Board, the Government
           Accountability Office, and Congress.
II.     Followed up on the IRS’ corrective actions taken based on the results and
        recommendations made in previously issued Fiscal Years 2002–2005 TIGTA Office of
        Audit reports.
        A. Determined if corrective actions were implemented.
        B. Determined if implemented actions improved the quality of service provided in the
           Taxpayer Assistance Centers; over the toll-free telephone line and on the Internet web
           site, IRS.gov, as well as in the areas of income tax return and tax refund processing
           and electronic filing.
        C. Determined the effect or impact of corrective actions that were not implemented.

1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).

                                                                                                             Page 26
                                 Taxpayer Service Is Improving,
                        but Challenges Continue in Meeting Expectations



III.   Analyzed data gathered from Fiscal Years 2002–2005 TIGTA Office of Audit reports to
       determine if the IRS made progress in improving the quality of customer service
       provided to individual taxpayers when obtaining assistance with filing their income tax
       returns and receiving their tax refunds.




                                                                                        Page 27
                                Taxpayer Service Is Improving,
                       but Challenges Continue in Meeting Expectations



                                                                             Appendix II

                 Major Contributors to This Report

Scott Macfarlane, Acting Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Patricia A. Jackson, Lead Auditor
Jack E. Forbus, Senior Auditor
Mary L. Keyes, Auditor




                                                                                     Page 28
                               Taxpayer Service Is Improving,
                      but Challenges Continue in Meeting Expectations



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services SE:W:CAS
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance SE:W:CAR:FA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 29
                                 Taxpayer Service Is Improving,
                        but Challenges Continue in Meeting Expectations



                                                                              Appendix IV

  Treasury Inspector General for Tax Administration
          Office of Audit Reports Analyzed
              (Fiscal Years 2002–2005)

Letter Report: The Internal Revenue Service Is Contributing to the Decline in TeleFile Volumes
(Reference Number 2002-40-003, dated October 2001).
While Most Taxpayers Received Accurate and Timely Notification of Their Advance Refunds,
Millions Did Not (Reference Number 2002-40-016, dated October 2001).
The Internal Revenue Service Could Improve Its Process to More Reliably Measure the
Accuracy of Its Toll-Free Tax Law Assistance (Reference Number 2002-40-051,
dated February 2002).
The Wage and Investment Division Properly Planned for the 2002 Toll-Free Telephone
Operation (Reference Number 2002-40-058, dated March 2002).
Improvements Need to Be Made to Publications and Instructions to Assist Taxpayers in
Successfully Signing Their Tax Returns Electronically (Reference Number 2002-40-046,
dated March 2002).
Management Advisory Report: Numerous Efforts Are Taken to Educate Taxpayers on Innocent
Spouse Eligibility Requirements (Reference Number 2002-40-067, dated March 2002).
Management Advisory Report: Taxpayers Continue to Receive Incorrect Answers to Some Tax
Law Questions (Reference Number 2002-40-086, dated April 2002).
Telephone Numbers and Addresses for Local Internal Revenue Service Offices Have Not Been
Published in Telephone Books (Reference Number 2002-40-087, dated May 2002).
Appropriate Changes Were Made to Tax Products; However, Improvements Are Needed for
Tracking the Changes (Reference Number 2002-40-090, dated May 2002).
Management Advisory Report: Taxpayers Continue to Receive Incorrect Answers to Some Tax
Law Questions (Reference Number 2002-40-113, dated June 2002).
Advance Refunds Were Accurately Calculated and Issued to Eligible Taxpayers, But Some
Undelivered Refunds Were Unnecessarily Delayed (Reference Number 2002-40-116,
dated June 2002).




                                                                                       Page 30
                                 Taxpayer Service Is Improving,
                        but Challenges Continue in Meeting Expectations



Despite Some Problems, the Internal Revenue Service Properly Identified Returns With Rate
Reduction Credit Errors During the 2002 Filing Season (Reference Number 2002-40-142,
dated August 2002).
The Quality of Toll-Free Tax Law Assistance During the 2002 Filing Season Improved;
However, More Can Be Done to Improve Quality and Enhance Service (Reference
Number 2002-40-137, dated August 2002).
Management Advisory Report: Progress Was Made to Provide Taxpayers With Correct Answers
to Tax Law Questions (Reference Number 2002-40-161, dated August 2002).
The Internal Revenue Service Needs to Improve the Pre-Filing Tax Services Provided to
Taxpayers (Reference Number 2002-40-174, dated September 2002).
Management Advisory Report: The Internal Revenue Service Has Made Progress to
Address Tax Law Complexity and to Control New Tax Law Implementation (Reference
Number 2002-40-188, dated September 2002).
Although the 2002 Filing Season Was Completed Timely, Customer Service Can Be Improved
During Error Processing (Reference Number 2002-40-200, dated September 2002).
The Internal Revenue Service Continues to Pay Tax Refunds on E-Filed Tax Returns Prior to
Ensuring a Signature Document Is Processed (Reference Number 2002-40-202,
dated September 2002).
Significant Efforts Have Been Made to Provide Taxpayers Better Access to the Toll-Free
Telephone System, but Additional Improvements Are Needed (Reference Number 2003-30-001,
dated October 2002).
Response Accuracy Is Higher for the Internet Program Than for Other Options Available to
Taxpayers Needing Assistance With Tax Law Questions (Reference Number 2003-40-014,
dated October 2002).
Trends in Customer Service in the Taxpayer Assistance Centers Show Procedural and Training
Causes for Inaccurate Answers to Tax Law Questions (Reference Number 2003-40-023,
dated November 2002).
Taxpayers That Visited Taxpayer Assistance Centers in July and August 2002 Received Incorrect
Answers to Some Tax Law Questions (Reference Number 2003-40-024, dated November 2002).
Taxpayers That Visited Taxpayer Assistance Centers During September and October 2002
Received More Correct Answers to Tax Law Questions Than in Prior Months (Reference
Number 2003-40-040, dated December 2002).
Significant Progress Has Been Made to Provide Interpreter Services to Non-English Speaking
Taxpayers in the Taxpayer Assistance Centers, but Improvements Are Needed (Reference
Number 2003-40-045, dated January 2003).

                                                                                        Page 31
                                 Taxpayer Service Is Improving,
                        but Challenges Continue in Meeting Expectations



The Internal Revenue Service Has Procedures to Ensure There Is Sufficient Trained Staff to
Process Individual Income Tax Returns in 2003 (Reference Number 2003-40-055,
dated February 2003).
Taxpayers That Visited Taxpayer Assistance Centers in November and December 2002 Received
Incorrect Answers to Some Tax Law Questions (Reference Number 2003-40-072,
dated March 2003).
Pre-Filing Season Activities to Address Specific Individual Electronic Filing Issues Were
Adequately Conducted (Reference Number 2003-40-073, dated March 2003).
Terrorist Victims’ Tax Relief Refunds Were Accurate, but Some Were Delayed (Reference
Number 2003-40-080, dated March 2003).
Opportunities Exist to Expand the TeleFile Program (Reference Number 2003-40-092,
dated March 2003).
Forms and Publications for the New Education and Retirement Tax Provisions Were Addressed
for the 2003 Filing Season (Reference Number 2003-40-105, dated April 2003).
Controls Need to Be Improved to Ensure Accurate Direct Deposit of Tax Refunds (Reference
Number 2003-40-108, dated May 2003).
Progress Was Made to Provide Taxpayers With Correct Answers to Tax Law Questions,
but Improvements Are Needed to Ensure Referral Procedures Are Followed (Reference
Number 2003-40-120, dated May 2003).
The Internal Revenue Service Has Opportunities to Provide Hearing- and
Speech-Impaired Taxpayers With Easier Access to Toll-Free Telephone Services
(Reference Number 2003-30-111, dated May 2003).
Additional Effort Is Needed to Prevent Taxpayers’ Personal Exemptions and Tax Credits From
Being Erroneously Denied (Reference Number 2003-40-124, dated May 2003).
Improvements Are Needed to Ensure Innocent Spouse Claims Are Accurately and Timely
Processed (Reference Number 2003-40-136, dated June 2003).
Taxpayer Assistance Center Employees Improved the Accuracy of Answers to Tax Law
Questions but Answered Some Questions Beyond Their Level of Training (Reference
Number 2003-40-157, dated July 2003).
Trends in Customer Service in the Taxpayer Assistance Centers Continue to Show Procedural
Causes for Inaccurate Answers to Tax Law Questions (Reference Number 2003-40-158,
dated August 2003).
The Internal Revenue Service Should Expand the Successful Automation of Payment Processing
to Include Additional Documents (Reference Number 2003-40-159, dated August 2003).


                                                                                            Page 32
                                 Taxpayer Service Is Improving,
                        but Challenges Continue in Meeting Expectations



Limited English Proficient Taxpayers Need Improved Written Products to Help Them
Understand and Comply With Tax Laws (Reference Number 2003-40-163, dated August 2003).
Improvements Are Needed to Ensure Individual Taxpayers Have an Easy, No-Cost Option to
e-File Their Tax Returns (Reference Number 2003-40-165, dated August 2003).
Taxpayer Assistance Center Employees Continued to Improve the Accuracy of Answers to Tax
Law Questions During May and June 2003 (Reference Number 2003-40-198,
dated September 2003).
Toll-Free Tax Law Assistance to Taxpayers Is Professional and Timely, but Improvement Is
Needed in the Information Provided (Reference Number 2003-40-216, dated September 2003).
The 2003 Filing Season Was Completed Timely and Accurately, but Some New Tax Law
Changes Were Not Effectively Implemented (Reference Number 2004-40-003,
dated October 2003).
Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate Direct
Deposit of Tax Refunds Claimed on E-Filed Tax Returns (Limited Official Use)
(Reference Number 2004-40-016, dated October 2003).
Improvements Are Needed in the Screening and Monitoring of E-File Providers to Protect
Against Filing Fraud (Reference Number 2004-40-013, dated November 2003).
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions During
July and August 2003 Than Compared to One Year Ago (Reference Number 2004-40-024,
dated December 2003).
Improvements Are Needed to Ensure Tax Returns Are Correctly Prepared at Taxpayer
Assistance Centers (Reference Number 2004-40-025, dated December 2003).
Improvement Is Needed in E-Mail Responses to Complex Tax Questions Submitted Through
Toll-Free Telephone Help Lines (Reference Number 2004-40-029, dated December 2003).
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
During September and October 2003 Than Compared to One Year Ago (Reference
Number 2004-40-037, dated January 2004).
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but Additional
Enhancements Are Needed (Reference Number 2004-30-038, dated January 2004).
The Child Tax Credit Advance Payment Was Effectively Planned and Implemented, but a
Programming Discrepancy Caused Some Overpayments (Reference Number 2004-40-042,
dated January 2004).
Toll-Free Account Assistance to Taxpayers Is Professional and Timely, but Improvement Is
Needed in the Information Provided (Reference Number 2004-40-057, dated February 2004).


                                                                                       Page 33
                                 Taxpayer Service Is Improving,
                        but Challenges Continue in Meeting Expectations



Accuracy Rates Have Increased at Taxpayer Assistance Centers, but Improvement Is Needed to
Provide Taxpayers Top-Quality Customer Service (Reference Number 2004-40-065,
dated February 2004).
Forms and Publications for Tax Year 2003 Properly Explain Specific Tax Law Changes
Affecting Individual Taxpayers (Reference Number 2004-40-069, dated March 2004).
More Could Be Done to Make It Easier for Taxpayers to Locate Taxpayer Assistance Centers
(Reference Number 2004-40-075, dated March 2004).
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
During November and December 2003 Than Compared to One Year Ago (Reference
Number 2004-40-090, dated April 2004).
Taxpayers Experienced Improved Access to Toll-Free Telephone Services During the
2004 Filing Season (Reference Number 2004-30-144, dated August 2004).
Additional Effort Answering Tax Law Questions Would Improve Customer Service (Reference
Number 2004-40-150, dated August 2004).
The Effectiveness of the Kiosk Program Cannot Be Determined (Reference
Number 2004-40-151, dated August 2004).
Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue
Service Volunteer Income Tax Assistance Sites (Reference Number 2004-40-154,
dated August 2004).
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved (Reference
Number 2004-40-152, dated September 2004).
Most Attachments Submitted With Individual Taxpayers’ Tax Returns Are Identified and
Processed (Reference Number 2004-40-153, dated September 2004).
Injured Spouse Guidance Is Not Consistent (Reference Number 2005-40-001,
dated October 2004).
The Health Coverage Tax Credit Was Accurately Processed During the 2004 Filing Season
(Reference Number 2005-40-017, dated December 2004).
Toll-Free Account Assistance to Taxpayers Is Professional and Timely, and the Quality of
Information Provided Has Improved (Reference Number 2005-40-018, dated December 2004).
The 2004 Filing Season Was Completed Timely and Accurately, but Some Tax Law Changes
Have Not Been Effectively Implemented (Reference Number 2005-40-016, dated
December 2004).
Customer Service at the Taxpayer Assistance Centers Is Improving but Is Still Not Meeting
Expectations (Reference Number 2005-40-021, dated December 2004).

                                                                                       Page 34
                                 Taxpayer Service Is Improving,
                        but Challenges Continue in Meeting Expectations



Opportunities Exist to Improve Tax Software Packages (Reference Number 2005-40-025,
dated January 2005).
Processes Used to Ensure the Accuracy of Information for Individual Taxpayers on IRS.gov
Need Improvement (Reference Number 2005-40-026, dated February 2005).
Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
but Account Identification and Maintenance Processes Need Improvement (Reference
Number 2005-40-077, dated April 2005).
The Accounts Management Program Has Annual Performance Goals but Should Develop
Long-Term Performance Goals (Reference Number 2005-40-079, dated May 2005).
Taxpayer Remittances Were Generally Safeguarded Within the Ogden Submission Processing
Site; However, Some Security Vulnerabilities Exist (Limited Official Use) (Reference
Number 2005-30-086, dated May 2005).
The Earned Income Tax Credit Income Verification Test Was Properly Conducted (Reference
Number 2005-40-093, dated May 2005).
Forms, Publications, and Computer Programming Were Adequately Addressed and Updated in
Most Instances for the 2005 Filing Season (Reference Number 2005-40-094, dated June 2005).
Individual Income Tax Return Information Was Accurately and Timely Posted to the Customer
Account Data Engine (Reference Number 2005-40-109, dated July 2005).
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference
Number 2005-40-110, dated July 2005).
Processing Changes Would Improve Service and Reduce Unnecessary Interest Paid on
Refunds to Taxpayers That File Amended Individual Income Tax Returns (Reference
Number 2005-40-111, dated July 2005).
Controls Over the Processing of the Mortgage Interest Credit Need to Be Improved (Limited
Official Use) (Reference Number 2005-40-137, dated September 2005).
Customer Accuracy at Taxpayer Assistance Centers Showed Little Improvement During the
2005 Filing Season (Reference Number 2005-40-146, dated September 2005).
Coordination and Monitoring Are Needed for Continued Improvement in the Tax Return
Preparation Process at the Taxpayer Assistance Centers (Reference Number 2005-40-147,
dated September 2005).
Electronic Tax Law Assistance Program Responses Are Timely and Generally Accurate
(Reference Number 2005-40-152, dated September 2005).
Taxpayers Continued to Experience Improved Access to Toll-Free Telephone Service During the
2005 Filing Season (Reference Number 2005-40-155, dated September 2005).

                                                                                       Page 35
                                Taxpayer Service Is Improving,
                       but Challenges Continue in Meeting Expectations



Payments Made at the Taxpayer Assistance Centers Are Generally Timely and Accurately
Processed (Reference Number 2005-40-148, dated September 2005).
Significant Improvements Have Been Made in the Oversight of the Volunteer Income Tax
Assistance Program, but Continued Effort Is Needed to Ensure the Accuracy of Services
Provided (Reference Number 2006-40-004, dated November 2005).
Improved Internal Controls and Contact Recording Are Needed to Ensure the Accuracy and
Reliability of the Taxpayer Assistance Centers Quality Measurement System (Reference
Number 2006-40-022, dated December 2005).
Individual Income Tax Returns Were Timely Processed in 2005; However, Implementation of
Tax Law Changes Could Be Improved (Reference Number 2006-40-024, dated December 2005).




                                                                                        Page 36
                 Taxpayer Service Is Improving,
        but Challenges Continue in Meeting Expectations



                                                  Appendix V

Management’s Response to the Draft Report




                                                          Page 37
         Taxpayer Service Is Improving,
but Challenges Continue in Meeting Expectations




                                                  Page 38
